                                                        National Railroad Passenger Corporation
                                                        Office of Inspector General
                                                        10 G Street N.E.
                                                        Washington, DC 20002




                 TICKET AGENT USES E-VOUCHERS TO STEAL MONEY
                               FEBRUARY 27, 2014
                               CASE OIG-I-2014-503

OI found that a ticket agent was improperly using E-Vouchers to steal money from Amtrak. An
E-Voucher is automatically created for a ticketed passenger when the passenger fails to board
their train. Additionally, if a passenger changes their mind about their travel after purchasing a
ticket, they can turn in their E-Ticket for an E-Voucher. A ticket agent in Amtrak’s Central
Division accessed outstanding E-Vouchers and used these E-Vouchers for passengers who were
purchasing their tickets with cash. The ticket agent would then pocket the cash provided by the
customer for their ticket. The ticket agent admitted the theft and was terminated. The theft was
estimated at $1500.
